Audit Report




OIG-10-012
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2009 and 2008 Financial Statements


November 24, 2009




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL




                                               November 24, 2009


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury Forfeiture Fund’s
                                     Fiscal Years 2009 and 2008 Financial Statements

            I am pleased to transmit the attached audited Department of the Treasury
            Forfeiture Fund (TFF) financial statements for Fiscal Years 2009 and 2008. Under
            a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of TFF as of September 30, 2009 and 2008 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                    •   Independent Auditor’s Report on Financial Statements;
                    •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                        and
                    •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, GKA found:

                    •   the financial statements were fairly presented, in all material respects, in
                        conformity with accounting principles generally accepted in the United
                        States of America;
                    •   no deficiencies in internal control over financial reporting that are
                        considered material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 30, 2009 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                           Treasury Forfeiture Fund
                             ACCOUNTABILITY REPORT
                                 Fiscal Year 2009
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C.




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
                                      Message from the Director

I am pleased to present the fiscal year (FY) 2009 Accountability Report for the Treasury Forfeiture Fund (the
Fund). While highlighting the Fund’s financial and operational performance over the past year, this report also
focuses on some of the significant investigative achievements of our participating law enforcement agencies
this year. Our FY 2009 was another successful revenue year for the law enforcement bureaus participating in
the Treasury Forfeiture Fund, with earned revenue of over $527 million from all sources as compared to $386
million in FY 2008.

The continued high-impact performance of the Fund reflects the ongoing hard work of our law enforcement
bureaus as well as Fund management’s emphasis on major case initiatives, asset forfeiture program training
and a focused approach regarding our performance measure which gauges revenue from high-impact cases.
The mission of the Fund is to affirmatively influence the consistent and strategic use of asset forfeiture by our
law enforcement bureaus to disrupt and dismantle criminal enterprise. It is our view that the greatest damage
to criminal enterprise can be achieved through large forfeitures, hence we have set a target level of 75 percent
of our forfeitures to be high-impact, i.e., cash forfeitures equal to or greater than $100,000. For FY 2009, our
member bureaus exceeded the target with a performance level of 87.65 percent high-impact cash forfeitures.

During FY 2009, the Treasury Executive Office for Asset Forfeiture (TEOAF) training program featured a
curriculum in Procedural Issues of the Asset Forfeiture Program. This curriculum addressed procedures and
problem areas related to Remissions and Refunds, Equitable Sharing, the Joint Operations Program, and the
National General Property Contract. It is critical to Fund management that the member bureaus’ field and
Headquarters personnel involved in the national forfeiture program thoroughly understand and follow correct
procedures and that they can correctly resolve issues and problems when necessary. The importance of these
procedural issues is further increasing with the growth of revenue to the Treasury Forfeiture Fund and the
tandem growth of related programs such as Equitable Sharing and Joint Operations. As part of these seminars,
we presented a new Guidebook on Refunds and Petitions for Remissions and Restoration Requests for member
agencies. Additionally, we partnered with IRS-CI to conduct a “one year reunion” conference for the
members of the IRS-led Pilot Title 31 Task Forces, launched in the spring of 2008 and funded by TEOAF.
The purpose of this conference was to provide a forum for the Pilot Task Forces to exchange their experiences
over the past year, as well as provide them with information and insights into various investigative and
operational subjects.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental Fund representing
the interests of law enforcement components of the Departments of Treasury and Homeland Security.
Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-CI), the U.S. Secret
Service, Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP). The U.S.
Coast Guard continues its close working relationship with the legacy Customs bureaus.

We look forward to another successful year in FY 2010.

                                                          Eric E. Hampl, Director
                                                          Executive Office for Asset Forfeiture
                                                          U.S. Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                                           Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1
    Strategic Mission and Vision ...............................................................................................1
    Case Highlights....................................................................................................................2
    Program and Fund Highlights............................................................................................12
    Program Performance ........................................................................................................13
    Financial Statement Highlights..........................................................................................15

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements ....................................................19
    Independent Auditor’s Report on Internal Control over Financial Reporting...................21
    Independent Auditor’s Report on Compliance with Laws and Regulations......................23

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets .............................................................................................................25
       Statements of Net Cost.................................................................................................26
       Statements of Changes in Net Position........................................................................27
       Statements of Budgetary Resources.............................................................................28
       Notes to Financial Statements......................................................................................29

Section IV:

Required Supplemental Information........................................................................................46

Section V:

Other Accompanying Information...........................................................................................48
                                Treasury Forfeiture Fund
                              FY 2009 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Financial Management and Assistant Director for Policy. Functional responsibilities are delegated to
various team leaders. EOAF is located in Washington, D.C., and currently has 22 full time
equivalent positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.



                                       SECTION I - OVERVIEW                                         1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2009 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


Internal Revenue Service, Criminal Investigation (IRS-CI)
Department of the Treasury

Lloyds TSB Bank agrees to forfeit $175 Million to the U.S. Government Pursuant to a Deferred
Prosecution Agreement
Information included in the following forfeiture article is attributed to:
Joseph A. Mann Jr. “Laundering costs British bank $350M,” published in The Michigan Daily, on May 12, 2009.


In a Deferred Prosecution Agreement, filed on January 9, 2009, Lloyds TSB Bank (“Lloyds”), a
financial institution registered and organized under the laws of England and Wales, agreed to forfeit a
total of $350 million as a settlement with the U.S. Government and the State of New York after U.S.
investigators found that it falsified information on electronic fund transfers from Iranian and
Sudanese banks to U.S. banks. Of this sum, $175 million was forfeited to the Treasury Forfeiture
Fund to be considered substitute res for the purpose of forfeiture to the United States pursuant to Title
18, U.S.C. § 981; and $175 million was forfeited to the State of New York for violations of New
York State Penal Law.

The Lloyds penalty is an expensive reminder of the severe consequences facing violators of U.S. anti-
money-laundering laws. As the investigation unfolded, U.S. federal law enforcement officials
working with the Manhattan District Attorney’s Office found that beginning in the mid-1990s,
Lloyds offices, primarily in the U.K., Tokyo and Dubai, altered the text of electronic messages that
moved funds from banks in Iran and Sudan to Lloyds and then to correspondent banks in the United
States. The alterations, called “stripping,” involved removing any references to Iran, Sudan or any
other terms that might raise a red flag at U.S. banks that these deposits involved countries, banks, or
persons listed as sanctioned parties by the United States Department of the Treasury’s Office of
Foreign Assets Control (OFAC). These actions by Lloyds bypassed money-laundering filters and
violated the International Emergency Economic Powers Act, 50 U.S.C. § 1705, to wit, Title 31, Code
of Federal Regulations, Sections 560.203 and 560.204, which prohibit: (a) the exportation from the
United States of a service to Iran without authorization, and (b) any transaction within the United
States that evaded and avoided, or had the purpose of evading and avoiding such regulations.

Pursuant to the Deferred Prosecution Agreement, Lloyds accepted and acknowledged responsibility
for its conduct and that of its employees in these matters. Also, by signing the Deferred Prosecution
Agreement, Lloyds acknowledged that approximately $350 Million was involved in the referenced
transactions and that such conduct violated Title 50 U.S.C. 1705. In lieu of a criminal prosecution
that would result in a mandatory order of forfeiture, Lloyds agreed to pay the sum of $175 million in
forfeitures to the U.S. Government.

2            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
$9.7 Million Forfeiture from ZipPayments for Unlicensed Money Transmitter Business
Information included in the following forfeiture article is attributed to:
United States District Court, District of Maryland, Application and Affidavit for Seizure Warrant,
Case No. 08-1895 5KG, dated June 25, 2008;
United States District Court for the District of Maryland, Northern Division, Settlement Agreement, Civil No. CCB-08-
1954, filed February 2, 2009; and
United States District Court for the District of Maryland, Northern Division, Final Order of Forfeiture, Civil Action No.
CCB-08-1954, filed February 5, 2009.

Pursuant to an early-February 2009 Settlement Agreement between the U.S. Government and
ZipPayments, a Final Order of Forfeiture was issued, also in early February 2009, forfeiting the sum
of $9,669,283 in U.S. Currency to the government.


$2.9 Million Forfeiture from Abdul Razzaque Ahmed for Obstructing a Federal Health Care
Investigation
Information included in the following forfeiture article is attributed to:
Department of Justice News Release date January 8, 2009, “Brookline Dermatologist Sentenced for Obstructing a Health
Care Fraud Investigation;” United States District Court, District of Massachusetts, Final Order of Forfeiture, Criminal
Case No. 05-10057-JLT, signed January 8, 2009.

On October 10, 2007, a fifteen-count Superseding Indictment was handed down by a federal grand
jury in the District Court of Massachusetts charging Abdul Razzaque Ahmed (Ahmed) with among
other things, Obstruction of Justice, in violation of 18 USC 1518. Subsequently, in November 2007,
Ahmed pled guilty to the offense pursuant to a plea agreement. In the plea agreement, Ahmed agreed
to forfeit any and all assets subject to forfeiture pursuant to 18 USC 982. Ahmed specifically
admitted that the $2.9 million in a specific account constituted or was derived directly or indirectly
from gross proceeds traceable to the commission of the offense to which he pled guilty. The $2.9
million was forfeited to the government on January 8, 2009.


Immigration and Customs Enforcement (ICE)
Department of Homeland Security

IFCO Systems North America Agrees to pay $18.1 Million in Civil Forfeitures for Illegal
Immigration and Employment Practices
Information included in the following forfeiture article is attributed to:
News Release dated January 23, 2009, “Superseding indictments charge 7 IFCO managers with violating federal
immigration law…..”
U.S. Immigration and Customs Enforcement Website: http://www.ice.gov/pi/nr/0901/090123albancy.htm

On April 19, 2006, ICE agents, in concert with other federal and state authorities, conducted a work
site enforcement action at over 40 IFCO Systems of North America (IFCO) plants in 26 states, which
resulted in the detention of 1,182 illegal aliens working at those plants. In January 2009, a federal
grand jury in Albany, New York, returned superseding indictments on seven IFCO managers
stemming from an ICE investigation of illegal immigration and employment-related practices at
IFCO’s pallet management services plants nationwide.

The seven defendants indicted in January were accused of conspiring, between 2003 and 2006, to
harbor illegal aliens employed by IFCO and to encourage and induce those illegal aliens to reside in
                                               SECTION I - OVERVIEW                                                         3
the United States. Four of these defendants were charged in a related conspiracy to defraud the
Internal Revenue Service and the Social Security by submitting false payroll-related information to
those agencies and to facilitate the misuse of social security numbers by IFCO employees.

IFCO agreed in December 2008 to pay, over four years, $2.6 million in back pay and penalties
related to overtime violations, and $18.1 million in civil forfeitures.


Forfeiture of $2.2 Million for Money Laundering Conspiracy and Concealing Terrorist
Financing
Information included in the following forfeiture article is attributed to:
News Release dated November 4, 2008, “Money remitter sentenced to over 9 years for money laundering conspiracy and
concealing terrorist financing”
 U.S. Immigration and Customs Enforcement Website: http://www.ice.gov/pi/nr/0811/081104baltimore.htm

In November 2008, Saifullah Anjum Ranjha was sentenced to just over 9 years in prison, followed by
three years of supervised release, for conspiring to launder money and for concealing terrorist
financing. A preliminary order of forfeiture for $2,208,000 of Ranjha’s assets was also entered.


                Joint Investigation of ICE and IRS – CI nets $3 Million in Forfeitures

Yong Sang Kim, 38, Sentenced to 36 Months in Prison, Forfeits Cash and Property Equivalent
to over $3 Million for Illegal Gambling on Oahu
Information included in the following forfeiture article is attributed to:
United States Attorney’s Office, District of Hawaii; Press Release dated February 9, 2009, “Honolulu Man Sentenced to
Prison for His Role in Operating an Illegal Gambling Operation”
U.S. Department of Justice Website: http://www.usdoj.gov/usao/hi/pressreleases/0902kim.html

In February 2009, Yong Sang Kim (Kim), 38, was sentenced to 36 months in prison for his role in
operating an illegal gambling business on Oahu. Kim, a Honolulu resident, agreed to forfeit all rights
and interest in certain real properties located in Honolulu, Hawaii; a 2004 Land Rover; and $789,674
in seized U.S. Currency, the total value of all forfeitures: $3,040,000.

According to an October 2008 Plea Agreement, Kim pled guilty to one count each of Conspiracy to
Operate an Illegal Gambling Business, Operating an Illegal Gambling Business, and Conspiracy to
Conduct and Attempt to Conduct a Financial Transaction Affecting Interstate and Foreign
Commerce.

                              Case Update on the Eric Cai Forfeiture
    Re: Investigation of the Johnson Mai Ecstasy Smuggling, Money Laundering Organization

Forfeiture of Eric Cai’s Burlingame, California Residence brings in $601,259.11 in Forfeiture
Revenue
Information included in the following forfeiture article is attributed to:
Case Summary by Immigration and Customs Enforcement, “Forfeiture of Eric Cai’s Burlingame, CA Residence;” and
United States District Court, Northern District of California, San Francisco Venue, First Amended Complaint for
Forfeiture, Case No. C 05-4185 EDL, executed August 11, 2006.




4            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
On November 4, 2008, Immigration and Customs Enforcement (ICE), San Francisco, received
$601,259.11 in forfeiture revenue as the result of the sale of the Burlingame, California residence of
Eric Cai. On August 10, 2006, as the result of an ICE investigation in San Francisco, the US
Attorney for the Northern District of California filed a Complaint for Forfeiture against the Cai
Burlingame, California residence. Cai was a lieutenant in the Johnson Mai ecstasy smuggling
organization, responsible for the smuggling and/or manufacture of over 12,000,000 ecstasy pills
between 2001 and 2006. The Complaint alleged that Eric Cai had purchased the residence in 2002
for $1,275,000 with the laundered proceeds of ecstasy trafficking, in violation of 18 USC 981. The
U.S. District Court in San Francisco issued a Final Order of Forfeiture for this property in April 2008.
After paying the mortgage balance, the sale netted the Treasury Forfeiture Fund just over $600,000.




                    Sale of Eric Cai’s residence, purchased with illegal proceeds,
                             nets the Treasury Forfeiture Fund $600,000.




                                        SECTION I - OVERVIEW                                          5
                       ICE Returns Stolen Religious Sculpture to Italy

ICE Returns 350-Year old Bust of Saint Innocent to Italy
Information included in the following forfeiture article is attributed to:
News Release dated March 17, 2009, “ICE seizes stolen Italian religious sculpture in North Carolina”
 U.S. Immigration and Customs Enforcement Website: http://www.ice.gov/pi/nr/0903/090317winstonsalem.htm

In March 2009, ICE returned to the Italian government an antique wooden bust of Saint Innocent,
which was stolen with 16 similar busts and two oil paintings from a church in Naples, Italy, in
November 1990. The bust was recovered from private owners in the Charlotte, North Carolina area
after being sold by an antiques dealer in Greensboro, North Caroline in 2007. No one in the United
States has been criminally charged, though the investigation is ongoing.

The bust, by 17th Century Franciscan artist Diego da Careri, was housed in the relic closet in the
transept of the church of Santa Maria degli Angeli alle Croci in Naples. The sculpture is carved from
wood, but painted and detailed in gold. It is missing its head and pieces of a cross that the saint is
depicted as carrying.

Italy considers the ancient bust a national treasure.




                            350-Year-Old Wooden Bust of Saint Innocent by
                            17th Century Franciscan artist Diego da Careri
                  The sculpture is carved from wood, but painted and detailed in gold.




6           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Customs and Border Protection (CBP)
Department of Homeland Security

CBP Officers Seize $1 Million in Undeclared Outbound Currency from FAST Driver at World
Trade Bridge
Information included in the following forfeiture article is attributed to:
News Release dated April 13, 2009, “CBP Officers Seize $1 Million in Undeclared Outbound Currency from FAST
Driver at World Trade Bridge”

In April 2009, U.S. Customs and Border Protection (CBP) officers at the Laredo port of entry
conducting outbound operations seized $1 million in undeclared currency from a driver enrolled in a
trusted shipper program. A 1999 Freightliner tractor hauling a shipment of appliances was referred
for a secondary examination. The driver gave a negative declaration for currency in excess of
$10,000, weapons or ammunition. A routine inspection of the tractor cab resulted in a canine alert to
the mattress. A non-intrusive imaging system scan indicated anomalies in the same area. A closer
visual inspection of the area revealed tape-wrapped bundles of U.S. currency hidden under the
mattress. CBP officers discovered bundles containing $1,000,035 in undeclared currency
underneath the mattress in the sleeper area of the cab. The driver was arrested and the tractor was
seized.




                 $1,000,035 in undeclared currency seized from a southbound tractor.


CBP Officers Seize $500,000 During Outbound Enforcement Operation
Information included in the following forfeiture article is attributed to:
News Release dated April 23, 2009, “CBP Officers in Pharr Seize $500k During Outbound Enforcement Operation”

In April 2009, CBP officers and Border Patrol agents working outbound enforcement operations at
the Pharr port of entry came in contact with a 2009 Nissan Sentra sedan that was traveling south to
Mexico. The driver and vehicle were referred to a secondary examination. Officers there referred
the vehicle for a non-intrusive image scan. X-ray images revealed anomalies within the vehicle’s
floor area below the front seats. While conducting an examination of the vehicle, officers discovered
two secret compartments under the driver’s and passenger’s front seats. After accessing the
compartments, officers removed a total of 48 undeclared U.S. bulk cash packages, containing
$500,003.

                                           SECTION I - OVERVIEW                                                7
The driver was arrested on Federal bulk cash smuggling charges. The bulk cash was seized along
with the vehicle.




               Undeclared bulk cash totaling $500,003 seized from secret compartments
                           under the front seats of a 2009 Nissan Sentra.


Border Patrol Seizes Nearly $400,000 during Traffic Stop
Information included in the following forfeiture article is attributed to:
News Release dated April 28, 2009, “Border Patrol Seizes Nearly $400k during Traffic Stop”




     Nearly $ 400,000 in undeclared cash seized during a traffic stop near the San Clemente Border
    Check point. The cash was discovered concealed in the rear quarter panels of a Volkswagen Golf.

Border Patrols agents seized a large sum of money suspected to be connected to narcotics sales
during a traffic stop near the San Clemente Border Patrol Checkpoint. A 29-year-old Mexican
national, driving a Volkswagen Golf, was questioned by Border Patrol agents. After questioning the
man, agents searched the vehicle and discovered numerous large bundles of U.S. currency hidden
within the rear quarter panels of the Volkswagen. The total of the currency was $399,900. Six
counterfeit bills totaling $100 were also found within bundles of seized currency.




8            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
The Mexican national was arrested and charged with bulk cash smuggling. The vehicle and the cash
were seized by the Border Patrol.

                                     CBP Fights Drug Traffic and
                                 Prevents Import of Other Illegal Goods

CBP Officers Seize $18 Million Worth of Cocaine in Shipment of Stone
Information included in the following forfeiture article is attributed to:
News Release dated February 4, 2009, “Texas CBP Officer Seize $18 Million worth of Cocaine in Shipment of Stone”

In February 2009, CBP officers at the Cargo Facility in Brownsville, Texas, discovered nearly $18
million in cocaine hidden within a commercial shipment of cantera stone being imported into the
country. Officers referred a white 1993 Dina tractor for a more extensive inspection. During this
secondary examination, CBP officers discovered discrepancies to the cantera stone on several of the
12 pallets contained in the shipment. After further scrutiny of the suspect stone, CBP officers
removed 403 packages from within the stone which harbored 560 pounds of cocaine.




          560 pounds of Cocaine Secreted in Cantera Stone being Imported into the Country.
                     Estimated Illicit Street Value of the Cocaine: $18 Million.




                                            SECTION I - OVERVIEW                                                   9
U. S. Secret Service
Department of Homeland Security

Alfredo F. Lopez Sentenced to 10 Years in Prison, Substantial Forfeitures for Medicare Fraud
and Money Laundering
Information included in the following forfeiture article is attributed to:
United States Attorney’s Office, Southern District of Florida, Press Release: January 13, 2009, “Organizer Receives 10
Year Sentence in Medicare Fraud and Money Laundering Scheme”

In January 2009, Alfredo F. Lopez was sentenced to 120 months in prison for his role in orchestrating
a multi-million dollar health care fraud and money laundering scheme. According to documents filed
in the case and statements made in open court, from 2003 through 2006, Lopez owned and controlled
various durable medical equipment (DME) companies in Miami, Florida. These DME companies
collectively submitted more than $16.5 million in false claims to Medicare for services and
equipment that were never provided. Lopez also used a series of straw owners to conceal his
ownership of the DME companies.

Through his scheme, Lopez received more than $3.3 million from the Medicare program. After
receiving these funds, Lopez laundered the money by using friends and other associates, including
bank employees, to cash hundreds of checks. Lopez then spent the money on expensive vehicles,
jewelry and to invest in other Miami-based medical enterprises.

In connection with the Lopez investigation, the U.S. Secret Service recovered more than $778,000 in
cash, a 2007 CL 550 Mercedes Benz, a 2008 Cadillac Escalade, Rolex watches and other jewelry.
The Court ordered these items forfeited to the United States along with Lopez’s residence located in
Southwest Miami-Dade County.




            2007 CL 550 Mercedes Benz, the same model luxury vehicle as the one forfeited
            by Alfredo F. Lopez, pursuant to Medicare fraud and money laundering charges.


10           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
U. S. Coast Guard
Department of Homeland Security

The U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity. The Coast Guard also maintains a close working relationship
with the Drug Enforcement Administration (DEA) of the Department of Justice, assisting with drug
boat interceptions on the high seas which are then turned over to the Department of Justice for
prosecution.

U.S. Coast Guard Law Enforcement Detachment (LEDET) Crew members and HMS Iron
Duke Crew members Stop a Go-Fast Vessel off the Coast of Venezuela in July 2009, Seize 36
Bales of Cocaine Worth an Estimated $55 Million
Information included in the following forfeiture article is attributed to:
United States Coast Guard Press Release: July 22, 2009, “Coast Guard, Royal Navy seize estimated $55 million in
cocaine” Website: http://www.d7publicaffairs.com/go/doc/586/290231/

A U.S. Coast Guard law enforcement boarding team from Miami, aboard the Royal Navy Frigate
HMS Iron Duke, seized an estimated $55 million worth of cocaine from a go-fast vessel off the coast
of Venezuela in July 2009. While on routine patrol in the Caribbean Sea, Iron Duke crew members
located a suspicious go-fast vessel and launched an embarked Lynx helicopter crew to investigate
after witnessing the go-fast crew throwing packages overboard. The Iron Duke also launched a small
boat with the Coast Guard law enforcement team and conducted an at-sea boarding. Crews boarded
the vessel, detained four men and recovered the 36 bales of cocaine thrown overboard.




                                             SECTION I - OVERVIEW                                                 11
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used. Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized
currency, initially deposited into a suspense account, or holding account, is transferred to the Fund as
forfeited revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the
Fund as forfeited revenue. It is this forfeiture revenue that comprises the budget authority for
meeting expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following forfeiture,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by Treasury law enforcement bureaus leading to Justice
forfeitures. SEF revenue is available for federal law enforcement purposes of any Treasury law
enforcement organization or law enforcement bureau that participates in the Treasury Forfeiture
Fund. In FY 2009, the Fund expensed $20.8 million in SEF authority as compared to $17.9 million
in FY 2008, an increase of $2.9 million or 16.2 percent. These resources were used to meet a variety
of law enforcement needs of member bureaus.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. The Fund declared a Super Surplus in the amount of $68.3 million for FY 2009. The actual
expense for FY 2009 was $42.8 million.

12         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability.

In addition, the Fund continues to support record levels of sharing of federal forfeitures with the state
and local and foreign governments that contributed to the successful seizure and forfeiture activity of
the Fund. The Fund provided $184.85 million toward equitable sharing expenses in FY 2009,
significantly above the $130 million in FY 2008, representing more than 40 percent of the regular
mandatory expense budget in FY 2009, and 25 percent in FY 2008. The actual expense for FY 2009
was $138.7 million as compared to $90.2 million for FY 2008. The higher allocation and expense
levels for FY 2008 and FY 2009 also reflect the higher forfeiture revenue earnings for those years.
These are critical resources afforded by policy of the Treasury Forfeiture Fund to protect and
preserve the valuable working relationships between our federal law enforcement bureaus and the
critically important state, local and foreign law enforcement agencies that work with them in an
investigative capacity day-in and day-out.

Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s national asset
forfeiture program in a manner that results in federal law enforcement’s continued and effective use
of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal
activity. To achieve our mission and goal, the program must be administered in a fiscally responsible
manner that seeks to minimize the administrative costs incurred, thereby maximizing the benefits for
law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2009,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2009 posed some continued management challenges including continued
oversight of increasing general property contract expenses associated with higher revenue levels. In
addition, commensurate with the high revenue year, there were additional expenses incurred by the
bureaus. In the midst of this period of growth and change, the Fund’s family of law enforcement
bureaus continued their hard work of federal law enforcement and the application of asset forfeiture
as a sanction to bring criminals to justice.


                                        SECTION I - OVERVIEW                                          13
FY 2009 continued a pattern of robust revenue years with regular revenue of $527.2 million from all
sources, surpassing the FY 2008 banner year of $386.4 million by over 36 percent. As we enter
fiscal year 2010, the Fund remains focused on support for strategic investigative initiatives that will
have the greatest impact on national and international criminal enterprise including valuable training
and investigative expense funding which emphasizes high impact cases.

Performance Measure

In FY 2009, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2009 is as follows:


                                                        FY 2008           FY 2009            FY 2009
            Performance Measure                          Actual            Target             Actual

Percent of forfeited cash proceeds resulting from         86.91%             75%              87.65%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2009. This is a fixed target for the Fund,
designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2009
was 87.65 percent, well above target. This compares with our FY 2008 and FY 2007 performance of
86.91 percent and 84.18 percent, respectively. This continued achievement is excellent and reflects
Fund management’s longstanding emphasis on high-impact forfeiture strategies as well as the use of
Fund authorities to assist member bureaus with larger cases that may take longer or require additional
resources not otherwise available. This measure was put into effect in FY 2001.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




14         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2009.

These statements have been prepared to disclose the financial position of the Fund, its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and reports on internal control over
financial reporting, and compliance with laws and regulations are also integral components to
understanding fully the financial highlights of Fund operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2009 and 2008.

Net Position – End of Year. For FY 2009, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $594.5 million
versus $426.8 million at the end of FY 2008. Both years closed with a strong and viable net position
with which to commence the next fiscal year’s operations.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. For a
number of years, Fund management forecast $250.0 million for the Fund from regular seizure and
forfeiture activities of our participating bureaus. For FY 2009, the Fund closed with $527.2 million
in Gross Non-Exchange Revenues versus a total for the FY 2008 closing of $386.4 million, an
increase of over 36 percent over FY 2008.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2009, Treasury Forfeiture Fund bureaus earned a total of $20.5 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $50.9 million during FY 2008, both excellent years. A
portion of these proceeds reflects Fund management’s continued work with the Department of Justice
to identify delays and/or downward adjustments to percentages associated with Reverse Asset
Sharing payments to the Treasury Forfeiture Fund. This revenue affords Treasury management
significant funding flexibilities for our participating agencies as the authority is broad and not
confined to funding program costs but can be used for any law enforcement purpose of our
participating bureaus.
                                       SECTION I - OVERVIEW                                         15
Cost of Operations. For FY 2009, the Cost of Operations totaled $150.0 million, down from $171.9
million in FY 2008.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2009, investments totaled $1.23 billion, up from $1.03 billion invested as of
September 30, 2008. Given the higher investment balance but negligible interest rates on Treasury
securities during FY 2009, investment income totaled only $1.3 million in FY 2009 as compared to
$21.1 million in FY 2008.

Equitable Sharing with Federal, State and Local Governments, and Foreign Countries. Each
year, the Fund pays tens of millions of dollars to state and local law enforcement agencies, and
foreign governments, for their participation in seizures that lead to forfeitures of the Treasury
Forfeiture Fund. State and local law enforcement agencies can use these resources to augment their
law enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the
local municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2009, the Fund shared a total of $134.6 million with other federal, state and local law
enforcement agencies, and another $4.1 million with foreign countries. This compares with $90.0
million shared with other federal, state and local law enforcement agencies during FY 2008, and
another $0.2 million with foreign countries in FY 2008.

Victim Restitution. During FY 2009, the Fund paid $7.1 million in restitution to victims as
compared to $6.1 million in FY 2008.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2009. Management will continue to emphasize high-impact cases by participating law
enforcement bureaus. The FY 2009 performance with forfeiture revenue earnings of over $527.2
million from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations totaled $150.0 million in FY 2009, down
from $171.9 million in FY 2008.

Intra-governmental. This cost category totaled $90.2 million in FY 2009, down from $108.2 million
in FY 2008. The amounts represent costs incurred by participating bureaus in running their respective
forfeiture programs.

National Seized Property Contracts. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2009, general property was
maintained by VSE Corporation and real property was maintained by EG&G Technical Services,
both contracts of the Department of the Treasury. In FY 2009, expenses of these two contracts

16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
totaled $49.1 million, down from expenses of the two contracts in FY 2008 of $53.2 million.

Statements: Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2009 to $1.4 billion, up from $1.26 billion million in FY
2008, an increase in asset value of over 11 percent. If seized currency, which is an asset in the
custody of the government but not yet owned by the government, is backed out of both figures, the
adjusted total assets of the Fund increased to $808.0 million in FY 2009, up from $643.9 million in
FY 2008. During FY 2009, total liabilities of the Fund decreased to $812.5 million, down from
$837.7 million in FY 2008. If seized currency, which is also shown as a liability because it is not yet
owned by the government, is backed out of both figures, the adjusted total liabilities of the Fund
decreased modestly to $213.5 million in FY 2009, down from $217.2 million in FY 2008.

With increased assets and decreased liabilities in FY 2009, the Cumulative Results of Operations, i.e.,
retained earnings, increased at the end of FY 2009 to a total of $594.5 million, up from $426.8
million at the end of FY 2008.

Financial and Program Performance -What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditor’s Findings

FY 2009 Audit. The Fund’s independent auditors have given the FY 2009 financial statements an
Unqualified Opinion with no material weaknesses in internal control over financial reporting
identified. The FY 2008 management letter comment regarding recording of indirect overhead
expenses of property to the line item level has been resolved.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2009 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2010. Fund management declared a Super Surplus from FY 2009 operations and will work to
recognize the hard work of our participating bureaus in the allocation of these resources.




                                       SECTION I - OVERVIEW                                         17
A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

    The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

    While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

    The statements should be read with the realization that they are for a component of the U.S.
     government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
     without legislation that provides resources to do so.




18           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
gka, P.C.                                                       Certified Public Accountants | Management Consultants



1015 18th Street, NW                  Independent Auditor's Report on Financial Statements
      Suite 200
  Washington, DC
        20036             Inspector General
                          United States Department of the Treasury
  Phone: 202-857-1777
   Fax: 202-857-1778      Washington, D.C.
Website: www.gkacpa.com


                          We have audited the Principal Statements (balance sheets and the related
                          statements of net cost, changes in net position, and budgetary resources, hereinafter
                          referred to as “financial statements”) of the Department of the Treasury Forfeiture
                          Fund (the Fund) as of and for the years ended September 30, 2009 and 2008. These
                          financial statements are the responsibility of Fund Management. Our responsibility
                          is to express an opinion on these financial statements based on our audits.

                          We conducted our audits in accordance with auditing standards generally accepted
                          in the United States of America; the standards applicable to financial audits
                          contained in Government Auditing Standards, issued by the Comptroller General of
                          the United States; and applicable provisions of Office of Management and Budget
                          (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
                          as amended. Those standards require that we plan and perform the audits to obtain
                          reasonable assurance about whether the financial statements are free of material
                          misstatement. An audit includes examining, on a test basis, evidence supporting the
                          amounts and disclosures in the financial statements. An audit also includes
                          assessing the accounting principles used and significant estimates made by Fund
                          Management, as well as evaluating the overall financial statement presentation. We
                          believe that our audits provide a reasonable basis for our opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of the Fund as of September 30, 2009 and
                          2008, and its net costs, changes in net position, and budgetary resources, for the
                          years then ended, in conformity with accounting principles generally accepted in
                          the United States of America.

                          In accordance with Government Auditing Standards, we have also issued a report
                          dated October 30, 2009, on our consideration of the Fund's internal control over
                          financial reporting and a report dated October 30, 2009, on our tests of its
                          compliance with laws, regulations, and contracts. These reports are an integral part
                          of an audit performed in accordance with Government Auditing Standards, and
                          these reports should be read in conjunction with this report in considering the
                          results of our audits.




                                                                  Member of the American Institute of Certified Public Accountants
Our audits were conducted for the purpose of forming an opinion on the financial statements referred
to in the first paragraph of this report as a whole. The information presented in Section I: Overview,
Section IV: Required Supplemental Information and Section V: Other Accompanying Information is
not a required part of the financial statements but is supplementary information required by
accounting principles generally accepted in the United States of America, OMB Circular A-136,
Financial Reporting Requirements, or the Treasury Forfeiture Fund Act of 1992. We applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of the supplementary information. However, such information has not
been subjected to the auditing procedures applied in the audits of the financial statements and,
accordingly, we express no opinion on it.




October 30, 2009




20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
gka, P.C.                                                        Certified Public Accountants | Management Consultants



1015 18th Street, NW       Independent Auditor's Report on Internal Control over Financial Reporting
      Suite 200
  Washington, DC          Inspector General
        20036             United States Department of the Treasury
                          Washington, D.C.
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com   We have audited the Principal Statements (balance sheet and the related statements
                          of net cost, changes in net position, and budgetary resources, hereinafter referred to
                          as “financial statements”) of the Department of the Treasury Forfeiture Fund (the
                          Fund) as of and for the year ended September 30, 2009, and have issued our report
                          thereon dated October 30, 2009. We conducted our audit in accordance with
                          auditing standards generally accepted in the United States of America; the
                          standards applicable to financial audits contained in Government Auditing
                          Standards, issued by the Comptroller General of the United States; and, applicable
                          provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
                          Requirements for Federal Financial Statements, as amended.

                          In planning and performing our audit, we considered the Fund’s internal control
                          over financial reporting by obtaining an understanding of the design effectiveness
                          of the Fund’s internal control, determining whether these internal controls had been
                          placed in operation, assessing control risk, and performing tests of controls as a
                          basis for designing our auditing procedures for the purpose of expressing our
                          opinion on the financial statements. We limited our internal control testing to those
                          controls necessary to achieve the objectives described in OMB Bulletin No. 07-04
                          and Government Auditing Standards. We did not test all internal controls relevant
                          to operating objectives as broadly defined by the Federal Managers’ Financial
                          Integrity Act of 1982, such as those controls relevant to ensuring efficient
                          operations. The objective of our audit was not to express an opinion on the
                          effectiveness of the Fund’s internal control over financial reporting. Consequently,
                          we do not express an opinion on internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might be
                          deficiencies, significant deficiencies or material weaknesses. Under standards
                          issued by the American Institute of Certified Public Accountants, a deficiency in
                          internal control exists when the design or operation of a control does not allow
                          management or employees, in the normal course of performing their assigned
                          functions, to prevent, or detect and correct misstatements on a timely basis. A
                          significant deficiency is a deficiency or combination of deficiencies, in internal
                          control that is less severe than a material weakness, yet important enough to merit
                          attention by those charged with governance. A material weakness is a deficiency, or
                          a combination of deficiencies, in internal control such that there is a reasonable
                          possibility that a material misstatement of the entity’s financial statements will not
                          be prevented, or detected and corrected on a timely basis.
                                                                   Member of the American Institute of Certified Public Accountants
We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses, as defined above.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 30, 2009




22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
gka, P.C.                                                        Certified Public Accountants | Management Consultants



1015 18th Street, NW        Independent Auditor's Report on Compliance with Laws and Regulations
      Suite 200
  Washington, DC          Inspector General
        20036             United States Department of the Treasury
                          Washington, D.C.
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com   We have audited the Principal Statements (balance sheet and the related statements
                          of net cost, changes in net position, and budgetary resources, hereinafter referred to
                          as “financial statements”) of the Department of the Treasury Forfeiture Fund (the
                          Fund) as of and for the year ended September 30, 2009, and have issued our report
                          thereon dated October 30, 2009. We conducted our audit in accordance with
                          auditing standards generally accepted in the United States of America; the
                          standards applicable to financial audits contained in Government Auditing
                          Standards, issued by the Comptroller General of the United States; and, applicable
                          provisions of Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
                          Requirements for Federal Financial Statements, as amended.

                          The management of the Fund is responsible for complying with laws, regulations,
                          and contracts applicable to the Fund. As part of obtaining reasonable assurance
                          about whether the Fund’s financial statements are free of material misstatement, we
                          performed tests of its compliance with certain provisions of laws, regulations, and
                          contracts, noncompliance with which could have a direct and material effect on the
                          determination of financial statement amounts, and certain other laws and
                          regulations specified in OMB Bulletin No. 07-04, including the requirements
                          referred to in Section 803(a) of the Federal Financial Management Improvement
                          Act (FFMIA) of 1996. We limited our tests of compliance to these provisions and
                          we did not test compliance with all laws, regulations, and contracts applicable to
                          the Fund. Providing an opinion on compliance with certain provisions of laws,
                          regulations, and contracts was not an objective of our audit and, accordingly, we do
                          not express such an opinion.

                          The results of our tests of compliance disclosed no instances of noncompliance
                          with laws, regulations, and contracts discussed in the preceding paragraph,
                          exclusive of FFMIA, that are required to be reported under Government Auditing
                          Standards or OMB Bulletin No. 07-04.

                          Under FFMIA, we are required to report whether the Fund’s financial management
                          systems substantially comply with the Federal financial management systems
                          requirements, applicable Federal accounting standards, and the United States
                          Government Standard General Ledger at the transaction level. To meet this
                          requirement, we performed tests of compliance with FFMIA section 803(a)
                          requirements.
The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be, and should
not be used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.




October 30, 2009




24         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                          SECTION III

             FINANCIAL STATEMENTS AND NOTES




TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009   25
                          Department of the Treasury Forfeiture Fund
                                     BALANCE SHEETS
                              As of September 30, 2009 and 2008
                                     (Dollars in thousands)

                                                                                       2009                 2008
Assets:

Intragovernmental:
       Fund balance with Treasury                                             $       30,676         $       9,936
       Investments and related interest (Note 3)                                 1,227,862            1,030,653
       Advances (Note 5)                                                                     218                 270
   Total Intragovernmental                                                       1,258,756            1,040,859
       Cash and other monetary assets (Note 6)                                         95,044             136,855
       Accounts Receivable                                                               1,282                1,208
                                                                                       96,326            138,063
      Forfeited property (Note 7)
         Held for sale, net of mortgages, liens and claims                             49,756             83,599
         To be shared with federal, state or local, or foreign governments               2,215              1,966
      Total forfeited property, net of mortgages, liens and claims                     51,971             85,565
Total Assets                                                                   $1,407,053          $1,264,487 

Liabilities:

  Intragovernmental:
      Distributions payable
         Other federal agencies                                               $        1,949       $      13,035
      Accounts payable                                                                38,882               28,636
 Total Intragovernmental:                                                           $40,831              $41,671

      Seized currency and other monetary instruments (Note 9)                       599,087              620,541
      Distributions payable (Note 10)
          State and local agencies and foreign governments                          108,372                68,631
      Accounts payable                                                                12,279               21,300
      Deferred revenue from forfeited assets                                          51,971               85,565

Total Liabilities                                                                   812,540              837,708

Net Position:
  Cumulative results of operations (Note 11)                                        594,513              426,779

Total Liabilities and Net Position                                           $1,407,053  $1,264,487 
                The accompanying notes are an integral part of these financial statements.

                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                           25
                           Department of the Treasury Forfeiture Fund
                                  STATEMENTS OF NET COST
                         For the years ended September 30, 2009 and 2008
                                        (Dollars in thousands)

                                                                                      2009                 2008
Program:                                                                                                
ENFORCEMENT
                                                                                                        
  Intragovernmental:
       Seizure investigative costs and asset management                     $       56,051         $     69,779
       Other asset related contract services                                           9,780                6,964
       Awards to informer                                                                     …                   99
       Data systems, training and others                                             24,377               31,309

  Total Intragovernmental                                                           90,208              108,151

  With the Public:
     National contract services seized property and other                           49,100                53,235
     Joint operations                                                               10,690                10,490

  Total with the Public                                                             59,790               63,725


Net Cost of Operations                                                    $      149,998          $   171,876
                                                                                                       




              The accompanying notes are an integral part of these financial statements.

   26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                           Department of the Treasury Forfeiture Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the years ended September 30, 2009 and 2008
                                      (Dollars in thousands)

                                                                                       2009          2008
                                                                                                   
Net Position – Beginning of year                                                $ 426,779       $ 361,387
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
        Investment interest income                                                     1,345       21,082
   Public
        Forfeited currency and monetary instruments                               479,494          412,151
        Sales of forfeited property net of mortgages and claims                     37,242          52,611
        Proceeds from participating with other federal agencies                     20,485          50,948
        Value of property transferred in equitable sharing                           8,012           8,095
        Payments in lieu of forfeiture, net of refund (Note 19)                   (27,608)       (166,561)
        Reimbursed costs                                                             4,026           4,352
        Others                                                                  ____4,180       ____3,698
   Total Gross Non-Exchange Revenues                                            __527,176       __386,376

Less: Equitable Sharing
  Intragovernmental
      Federal                                                                         (9,594)     (11,551)
  Public
      State and local agencies                                                  (125,009)         (78,498)
      Foreign countries                                                           (4,096)            (177)
      Victim restitution                                                        __(7,143)       ___(6,086)
                                                                                (136,248)       __(84,761)
   Total Equitable Sharing                                                      (145,842)       __(96,312)

Total Non-Exchange Revenues, Net                                                 _381,334       __290,064

Transfers –Out
  Intragovernmental
  Super surplus (Note 13)                                                            (42,771)     (34,871)
   Secretary’s enforcement fund (Note 14)                                            (20,831)     (17,925)
Total Transfers Out                                                                  (63,602)   _ (52,796)

Total Financing Sources - Net                                                     317,732          237,268
Net Cost of Operations                                                          (149,998)        (171,876)

Net Results of Operations                                                            167,734       65,392

Net Position – End of Year                                                  $        594,513    $ 426,779

               The accompanying notes are an integral part of these financial statements.
                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                  27
                          Department of the Treasury Forfeiture Fund
                        STATEMENTS OF BUDGETARY RESOURCES
                        For the years ended September 30, 2009 and 2008
                                       (Dollars in thousands)


                                                                                    2009              2008
                                                                                                   
Budgetary Resources:
                                                                                                      
   Unobligated balances- beginning of year                                  $      183,082  $    160,117   
   Recoveries of prior year unpaid obligations                                        74,946           41,607
   Budget authority                                                                 525,527       578,645

Total Budgetary Resources                                                   $      783,555    $   780,369

Status of Budgetary Resources:

   Obligations incurred                                                     $      483,585  $   597,287
   Unobligated balances - available                                                 299,970       183,082 

Total Status of Budgetary Resources                                          $     783,555    $   780,369


Change in Obligated Balance:
   Obligated balance, net-beginning of year                                  $     358,143    $   316,085
   Obligations incurred                                                            483,585         597,287 
   Less: Gross outlays                                                           (360,762)       (513,622)
   Less: Recoveries of prior year unpaid obligations, actual                       (74,946)        (41,607)

Obligated balance, net – end of year                                         $    406,020     $   358,143

Net Outlays                                                                  $    360,762     $   513,622




              The accompanying notes are an integral part of these financial statements.

   28           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                                                  –

Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus
under a single forfeiture fund program administered by the Department of the Treasury (Treasury).
Treasury law enforcement bureaus fully participating in the Fund upon enactment of this legislation
were the U.S. Customs Service (Customs); the Internal Revenue Service (IRS); the United States
Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial
Crimes Enforcement Network (FinCEN); and the Federal Law Enforcement Training Center
(FLETC). FinCEN and FLETC contribute no revenue to the Fund and receive relatively few
distributions from the Fund. The U.S. Coast Guard, formerly part of the Department of
Transportation, now part of the Department of Homeland Security (DHS), also participates in the
Fund. However, all Coast Guard seizures are treated as Customs seizures because the Coast Guard
lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs
Enforcement (ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS joins
these bureaus. The Fund continues in its capacity as a multi-Departmental Fund, representing the
interests of law enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in
a manner that results in federal law enforcement’s continued and effective use of asset forfeiture as a
high-impact law enforcement sanction to disrupt and dismantle criminal activity. Under a
Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for certain
operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance Center (NFC)
is responsible for accounting and financial reporting for the Fund, including timely and accurate
reporting and compliance with Treasury, the Comptroller General and the Office of Management and
Budget (OMB) regulations and reporting requirements.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               29
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC§9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA)
requires executive agencies, including the Treasury, to produce audited consolidated accountability
reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP
for federal entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is designated the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants.

Financial Statements Presented

These financial statements are provided to meet the requirements of the Chief Financial Officers Act
of 1990, and the Government Management Reform Act of 1994. They consist of the balance sheet,
the statement of net cost, the statement of changes in net position, and the statement of budgetary
resources, all of which are prescribed by OMB.

Comparative financial statements are presented in order to provide a better understanding of, and
identifying trends in the financial position and results of operations of the Fund.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase
of awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the
criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information

   30          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
leading to seizure, holding cost, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.

The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other
financing sources, which remain available over time. These specifically identified revenues and other
financing sources are required by statute to be used for designated activities, benefits, or purposes,
and must be accounted for separately from the Government’s general revenues. In accordance with
SFFAS 27, Earmarked Funds, all of the TFF’s revenue meets this criteria and constitutes an
earmarked fund.

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                31
The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash collected from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
TFF as evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S.
Treasury. Because the TFF and U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they
do not represent an asset or a liability in the U.S. Government-wide financial statements.
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances, by
raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A class of asset distribution
was established for victim restitution in 1995. These distributions include property and cash returned
to victims of fraud and other illegal activity. Upon approval by Fund management to share or
transfer the assets, both revenue from distributed forfeited assets and distributions are recognized for
the net realizable value of the asset to be shared or transferred, thereby resulting in no gain or loss
recognized. Revenue and /or expenses are recognized for property and currency, which are
distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of forfeited
balances, accrued interest on seized balances, receivables, and forfeited property, which are held for
sale or to be distributed.

   Fund Balance with Treasury – This represents amounts on deposit with Treasury.

   Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
    and seized currency held in the Customs Suspense Account that had been invested in short term
    U.S. Government Securities.

   Receivables – Intragovernmental receivables principally represent monies due from the law
    enforcement agencies participating in the Fund. The values reported for other receivables are
    primarily funds due from the national seized property contractor for properties sold; the proceeds


    32          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
    of which have not yet been deposited into the Fund. No allowance has been made for
    uncollectible amounts as the accounts recorded as a receivable at year end were considered to be
    fully collectible as of September 30, 2009 and 2008.

   Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
    participating in the Fund for orders to be delivered.

   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited
    and forfeited currency held as evidence.

   Forfeited Property and Currency – Forfeited property and currency is recorded in the
    respective seized property and forfeited asset tracking systems at the estimated fair value at the
    time of seizure. However, based on historical sales experiences for the year, properties are
    adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
    purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
    Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
    Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 8 and 9.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non-
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
    that are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized
    monetary instruments (cash and cash equivalents) be recognized as an asset in the financial
    statements and a liability be established in an amount equal to the seized asset value due to: (i) the
    fungible nature of monetary instruments, (ii) the high level of control that is necessary over these
    assets; and (iii) the possibility that these monies may be returned to their owner in lieu of
    forfeiture.



                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 33
    Seized property is recorded at its appraised value at the time of seizure. The value is determined
    by the seizing entity and is usually based on a market analysis such as a third party appraisal,
    standard property value publications or bank statements. Seized property is not recognized as an
    asset in the financial statements, as transfer of ownership to the government has not occurred as
    of September 30. Accordingly, seized property other than monetary instruments is disclosed in
    the footnotes in accordance with SFFAS No. 3.

   Investments – This balance includes seized cash on deposit in the Fund’s suspense account held
    by Treasury which has been invested in short term U.S. Government Securities.

   Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
    seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on
    deposit held with other financial institutions and, cash on hand in vaults held at field office
    locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

   Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
    related to equitable sharing payments and payments to be made by the Fund to the victims of
    fraud.

   Accounts Payable – Amounts reported in this category include accrued expenses authorized by
    the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

   Seized Currency – Amounts reported in this category represent the value of seized currency that
    is held by the Fund which equals the amount of seized currency reported as an asset.

   Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
    had not yet been converted into cash through a sale. The amount reported here represents the
    value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
 Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2010. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

   Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
    contracts and equitable sharing requests which have been obligated with current budget resources
    or delivered purchase orders and contracts that have not been invoiced. An expense and liability

    34         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
    are recognized and the corresponding obligations are reduced as goods are received or services
    are performed. A portion of the equitable sharing requests that were in final stages of approval
    are recognized as liabilities at year end. Prior experience with the nature of this account indicated
    that a substantial portion of these requests were certain liabilities at year end. (See also
    Distributions Payable at Note 10).

   Results of Operations – This category represents the net difference, for the activity during the
    year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.

Note 3: Investments and Related Interest

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The discount
is amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs
Suspense Account. The Customs Suspense Account became the depository for seized cash for the
Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2009 and 2008,
respectively (dollars in thousands):

Entity Assets

Description.                                                  Cost     Unamortized          Investment,
                                                                          Discount                 Net
September 30, 2009
Treasury Forfeiture Fund -

35 days 0.0350% U.S. Treasury Bills                      $705,338               ($24)          $705,314

Interest Receivable                                                                                    7

Total Investment, Net, and Interest Receivable                                                 $705,321

Fair Market Value                                                                              $705,305

September 30, 2008
Treasury Forfeiture Fund -

35 days 0.160% U.S. Treasury Bills                       $531,371               ($83)          $531,288

Interest Receivable                                                                                   55

Total Investment, Net, and Interest Receivable                                                 $531,343

Fair Market Value                                                                              $531,302



                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                35
Non-entity Assets

Description                                            Cost       Unamortized          Investment,
                                                                     Discount                 Net
September 30, 2009
Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.0350% U.S. Treasury Bills               $522,559               ($18)              $522,541

Fair Market Value                                                                           $522,534

September 30, 2008

Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.160% U.S. Treasury Bills                $499,388               ($78)              $499,310

Fair Market Value                                                                           $499,324


Note 4: Analysis of Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2009 and 2008,
respectively, (dollars in thousands):

                                                                 2009                2008
    Seized currency:
        Intragovernmental Investments (Note 3)               $    522,541        $    499,310
        Cash and other monetary assets (Note 6)                    76,546             121,231
    Total Non-Entity Assets                                       599,087             620,541
    Total Entity Assets                                           807,966             643,946
    Total Assets                                             $   1,407,053       $   1,264,487

Note 5: Advances

Advances amounted to $218 thousand and $270 thousand as of September 30, 2009 and 2008,
respectively.




   36         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Note 6: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well
as forfeited currency held as evidence, amounting to $18.5 million and $15.6 million as of September
30, 2009 and 2008, respectively.

Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited
seized currency which is not invested in order to pay remissions, amounted to $76.5 million and
$121.2 million as of September 30, 2009 and 2008, respectively.

Note 7: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2009 and
2008, respectively, (dollars in thousands):

                                                                        2009               2008
 Held for Sale                                                      $    57,263        $     95,149
 To be shared with federal, state or local, or foreign government         2,215               1,966
   Total forfeited property (Note 8)                                     59,478              97,115
 Less: Allowance for mortgages and claims                                (7,507)            (11,550)
 Total forfeited property, net                                      $    51,971        $    85,565




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                            37
Note 8: FY 2009 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2008 to September 30, 2009.
(Dollar value is in thousands.)

                 10/1/08 Financial                                  10/1/08
                 Statement Balance        Adjustments               Carrying Value          Forfeitures             Deposits/Sales             Disposals/Transfers
                 Value        No.         Value         No.         Value        No.        Value         No.       Value        No.           Value           No.

Currency          $15,313           -             $-            -    $15,313            -   $465,101            -   $(465,881)             -              $-           -
Other Monetary
Instruments           311          -            -               -        311          -        9,759           -       (9,752)             -            -
Subtotal           15,624          -            -               -     15,624          -      474,860           -     (475,633)             -            -
Real Property      83,293        211        6,233               -     89,526        211       34,650         109      (35,927)         (112)     (13,682)          (27)
General             6,453      7,797       14,790               -     21,243      7,797       19,949      18,341      (10,639)       (1,549)      (1,388)       (1,139)
Property
Vessels               226         44          253               -        479         44        2,698         138       (1,731)       (77)           (170)          (13)
Aircraft              343          5          229               -        572          5        1,598          11       (1,774)        (8)         (1,613)           (3)
Vehicles            6,800      3,114        9,708               -     16,508      3,114       47,202      14,484      (42,876)   (13,766)         (8,007)         (879)
Subtotal           97,115     11,171       31,213               -    128,328     11,171      106,097      33,083      (92,947)   (15,512)        (24,860)       (2,061)
Grand Total      $112,739     11,171      $31,213               -   $143,952     11,171     $580,957      33,083    $(568,580)   (15,512)       $(24,860)       (2,061)

                                                                              Other              Value Change        2009 Carrying Value           Fair Market Value         9/30/09 Financial
                 Victim Restitution                    Destroyed            Adjustments                                                                  Adjustment         Statement Balance
                    Value       No.         Value             No.      Value         No.       Value        No.         Value           No.            Value         No.     Value        No.
Currency               $-         -            $-               -     $3,655           -          $-          -       $18,188             -               $-           -   $18,188          -
Other Monetary
Instruments               -                                     -
                                    -                                     (9)           -          -            -         309             -             -              -       309          -
Subtotal                  -         -              -            -      3,646            -          -            -      18,497             -             -              -    18,497          -
Real Property             -         -              -            -    (4,596)           15      (421)            -      69,550           196      (22,016)              -    47,534        196
General
Property                  -         -       (116)       (14,534)       2,419         475     (8,410)            -      23,058         9,391      (18,100)              -     4,958      9,391
Vessels                   -         -           -           (32)        (15)           2        (11)            -       1,250            62         (505)              -       745         62
Aircraft                  -         -           -            (2)       1,719           3           -            -         502             6         (389)              -       113          6
Vehicles                  -         -        (15)          (166)       2,737         497       (198)            -      15,351         3,284       (9,223)              -     6,128      3,284
Subtotal                  -         -       (131)       (14,734)       2,264         992     (9,040)            -     109,711        12,939      (50,233)              -    59,478     12,939
Grand Total              $-         -      $(131)       (14,734)      $5,910         992    $(9,040)            -    $128,208        12,939     $(50,233)              -   $77,975     12,939




                                     38                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Note 8 (Cont’d): FY 2008 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2007 to September 30, 2008.
(Dollar value is in thousands.)

                10/1/07                                            10/1/07
                Financial            Adjustments                 Carrying Value          Forfeitures             Deposits/Sales            Disposals/Transfers
                Statement Balance
                Value      No.       Value         No.           Value        No.        Value         No.       Value        No.          Value        No.
                                                                                                       No.
Currency         $28,023         -           $-            -      $28,023            -   $288.883            -   $(320,420)            -       $(160)            -
Other
Monetary                         -            -            -          448            -     96,572            -     (96,709)            -            -
Instruments          448
Subtotal          28,471        -           -              -       28,471           -     385,455          -      (417,129)            -        (160)
Real Property     63,141      136    (14,799)              -       48,342         136      65,102        112       (25,728)        (119)      (6,590)         (17)

General                                                    -
Property           7,757    8,947     18,017                       25,774      8,947       41,312      14,836      (12,351)    (2,488)       (25,723)    (1,129)
Vessels              355       52        512               -          867         52        3,290         103       (3,620)       (77)          (218)        (6)
Aircraft             437        7        239               -          676          7          200           3         (244)        (4)              -          -
Vehicles          10,780    5,656     16,669               -       27,449      5,656       56,143      14,525      (53,777)   (15,374)       (12,124)    (1,141)
Subtotal          82,470   14,798     20,638               -      103,108     14,798      166,047      29,579      (95,720)   (18,062)       (44,655)    (2,293)
Grand Total     $110,941   14,798    $20,638               -     $131,579     14,798     $551,502      29,579    $(512,849)   (18,062)      $(44,815)    (2,293)

                                                                           Other              Value Change        2008 Carrying Value         Fair Market Value        9/30/08 Financial
                Victim Restitution                Destroyed              Adjustments                                                                Adjustment        Statement Balance
                   Value      No.      Value             No.        Value         No.       Value        No.         Value          No.        Value          No.       Value       No.
Currency              $-        -         $-               0      $19,082           -       $(95)          -       $15,313            -           $-            -     $15,313         -
Other
Monetary               -                                   -
Instruments                      -                                      -            -           -           -         311             -            -            -        311          -
Subtotal               -         -            -            -       19,082            -        (95)           -      15,624             -            -            -     15,624          -
Real Property          -         -            -            -                                                                                                     -
                                                                    7,636           99        764            -      89,526          211       (6,233)                  83,293       211
General
Property               -         -     (122)       (12,428)           376         59      (8,023)            -      21,243         7,797     (14,790)            -      6,453     7,797
Vessels                -         -         -           (32)           183          4         (23)            -         479            44        (253)            -        226        44
Aircraft               -         -         -              -          (60)        (1)            -            -         572             5        (229)            -        343         5
Vehicles               -         -         -          (269)         (870)      (283)        (313)            -      16,508         3,114      (9,708)            -      6,800     3,114
Subtotal               -         -     (122)       (12,729)         7,265      (122)      (7,595)            -     128,328        11,171     (31,213)            -     97,115    11,171
Grand Total           $-         -    $(122)       (12,729)       $26,347      (122)     $(7,690)            -    $143,952        11,171    $(31,213)            -   $112,739    11,171




                                                               SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                          39
Note 9: FY 2009 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                       9/30/08 Financial                                                                                                                      9/30/09 Financial
                      Statement Balance                Seizures           Remissions                  Forfeitures        Adjustments      Value Changes      Statement Balance
                       Value          No.      Value       No.        Value       No.        Value           No.      Value       No.       Value    No.       Value       No.
Currency            $608,463            -   $498,987         -     $(80,112)        -    $(465,101)            -    $23,021         -          $-      -    $585,258         -
Other Monetary
Instruments           12,078                   3,799          -
                                        -                               (11)         -      (9,759)            -       7,722        -            -     -      13,829         -
Subtotal             620,541            -    502,786         -      (80,123)         -    (474,860)            -      30,743        -            -     -     599,087         -
Real Property        297,813          590     57,553       207      (48,724)      (90)     (34,650)        (109)    (15,915)     (18)        (243)     -     255,834       580

General Property      297,533    18,743      220,793    28,460     (143,548)   (3,744)     (19,949)     (18,341)     (7,923)   (4,583)    (33,328)     -      313,578   20,535
Vessels                 7,035       160        5,183       162       (3,421)      (70)      (2,698)        (138)        (49)       (7)       (251)     -        5,799      107
Aircraft                3,241        17        7,811        25         (982)       (6)      (1,598)         (11)       (220)       (2)         (5)     -        8,247       23
Vehicles               55,021     6,996      101,182    20,448      (49,156)   (4,666)     (47,202)     (14,484)     (5,584)     (751)       (505)     -       53,756    7,543
Subtotal              660,643    26,506      392,522    49,302     (245,831)   (8,576)    (106,097)     (33,083)    (29,691)   (5,361)    (34,332)     -      637,214   28,788
Grand Total        $1,281,184    26,506     $895,308    49,302    $(325,954)   (8,576)   $(580,957)     (33,083)      $1,052   (5,361)   $(34,332)     -   $1,236,301   28,788




                                 40           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Note 9 (Cont’d): FY 2008 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                     9/30/07 Financial                                                                                                                      9/30/08 Financial
                    Statement Balance               Seizures           Remissions                  Forfeitures         Adjustments      Value Changes      Statement Balance
                     Value        No.       Value       No.        Value       No.        Value           No.       Value       No.       Value    No.       Value       No.
Currency          $535,538          -    $417,485         -     $(22,265)        -    $(288,883)            -    $(32,242)        -     $(1,170)     -    $608,463         -
Other Monetary
Instruments         12,234                 98,788          -
                                    -                                   -        -      (96,572)            -      (2,372)         -           -     -      12,078         -
Subtotal           547,772          -     516,273         -      (22,265)        -     (385,455)            -     (34,614)         -     (1,170)     -     620,541         -
Real Property      279,550        752     110,175       198      (34,086)    (193)      (65,102)        (112)        6,460      (55)         816     -     297,813       590

General            339,804     16,983     134,948    24,178     (104,128)   (3,778)     (41,312)     (14,836)      (3,899)   (3,804)    (27,880)     -     297,533    18,743
Property
Vessels               7,889       112       7,518       222       (3,792)      (63)      (3,290)        (103)        (349)       (8)       (941)     -        7,035      160
Aircraft              2,707        13       5,439        13       (3,326)       (5)        (200)          (3)        (516)       (1)       (863)     -        3,241       17
Vehicles             64,341     8,655     113,850    19,486      (55,780)   (5,163)     (56,143)     (14,525)     (10,236)   (1,457)     (1,011)     -       55,021    6,996
Subtotal            694,291    26,515     371,930    44,097     (201,112)   (9,202)    (166,047)     (29,579)      (8,540)   (5,325)    (29,879)     -      660,643   26,506
Grand Total      $1,242,063    26,515    $888,203    44,097    $(223,377)   (9,202)   $(551,502)     (29,579)    $(43,154)   (5,325)   $(31,049)     -   $1,281,184   26,506




                                                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                     41
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $108.4 million
and $68.6 million as of September 30, 2009 and 2008, respectively. Fund management recognizes as
a liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2009 and 2008,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September
30, 2009 and 2008, respectively, (dollars in thousands):

                                                            2009               2008
                 Retained Capital                         $ 180,326      $    132,959
                 Unliquidated Obligations                   246,453           228,428
                 Net Results of Operations                  167,734            65,392
                                                          $ 594,513       $ 426,779

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2009 and
2008, respectively, (dollars in thousands):

                                                             2009           2008
                 Equitable Sharing                       $ 113,060        $  88,181
                 Mandatory                                  133,393         140,247
                                                          $ 246,453       $ 228,428

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by
the participating agencies in their financial statements.

Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation
of amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used
for law enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $42.8 million and $34.9 million in fiscal years 2009 and 2008, respectively.

   42          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Note 14: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal
Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $20.8 million and $17.9 million in fiscal years 2009 and 2008,
respectively.

Note 15: Commitments and Contingencies

COMMITMENTS
A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES

In the opinion of the Fund’s management and legal counsel, there are no pending or threatened
litigation claims for which the amount of potential loss, individually, or in aggregate, will have a
material adverse effect on the Fund’s financial statements.

Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                         2009            2008
       Gross Costs                                     $ 149,998       $ 171,876
       Earned Revenues                                            -               -

       Net Costs                                       $ 149,998       $ 171,876

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2009 and 2008
were $406.0 million and $358.1 million, respectively. This amount is fully covered by cash on hand
in the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                               43
borrowing authority. There are no legal arrangements, outside of normal government wide
restrictions, specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2009 and 2008 consist
of the following (in thousands):

                                                                 2009            2008
             Recoveries of Prior Year Unpaid Obligations $       74,946      $    41,607

Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held
for later use.

Note 19: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2009
and 2008, respectively, (dollars in thousands):

                                                           2009               2008
                 Payments in Lieu of Forfeiture           $ 8,169          $ 10,355
                 Refunds                                    (35,777)        (176,916)
                 Total                                    ($ 27,608)       ($166,561)




   44          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the
Fund’s proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                          2009           2008
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                         $   483,585 $      597,287
        Less: Spending authority from offsetting
           Collections and recoveries                                    (74,946)       (41,607)
        Net Obligations                                                  408,639        555,680
    Other resources
        Transfers – out                                                  (63,602)       (52,796)
  Total Resources Used to Finance Activities                             345,037        502,884

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided              (10,013)      (47,393)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                           (3,407)      (10,386)
            Refunds                                                       (35,777)     (176,917)
            Equitable Sharing (federal, state/local and foreign)         (138,699)      (90,226)
            Victim restitution                                             (7,143)       (6,086)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                    (195,039)     (331,008)
  Total Resources Used to Finance the Net Cost of Operations              149,998       171,876
  Net Cost of Operations                                             $   149,998 $      171,876




                        SECTION III - FINANCIAL STATEMENTS AND NOTES                              45
THIS PAGE INTENTIONALLY LEFT BLANK
            SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

           (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
Intragovernmental Amounts – Assets (Dollars in thousands)
                                                    2009                                                  2008
                              Fund                                                  Fund
                             Balance         Accounts                              Balance         Accounts
                               with         Receivable/                              with         Receivable/
      Partner Agency         Treasury        Advances          Investments         Treasury        Advances           Investments
 Departmental Offices        $      -       $         218      $            -     $       -       $             270   $          -
 Bureau of Public Debt              -                      -       1,227,862              -                      -        1,030,653

 Totals                      _$         -   $         218      $ 1,227,862        $       -       $             270   $ 1,030,653

Intragovernmental Amounts – Liabilities (Dollars in thousands)

                                                                             2009               2008
                                                                           Accounts           Accounts
                    Partner Agency                                         Payable            Payable
                    Department of Justice                              $         2,280        $        2,280

                    Departmental Offices                                          949                     897

                    Department of Homeland Security                             10,752            10,752

                    Department of Defense                                             3                     3

                    Fincen                                                       1,243                    925

                    Tax and Trade                                                 285                      22

                    Internal Revenue Service                                    25,319             26,792
                    Totals                                             $        40,831    $           41,671

Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                    2009                                                  2008

                              Cost to Generate          Costs to Generate          Cost to Generate              Costs to Generate
                                  Exchange               Non-Exchange                 Exchange                    Non-Exchange
                             Intragovernmental         Intragovernmental          Intragovernmental             Intragovernmental
     Budget Functions             Revenue                   Revenue                    Revenue                       Revenue

Administration of
  Justice                    $                  -      $             90,208       $                   -         $            108,151




46           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):
                                                     2009                            2008
              Partner Agency                In              Out             In              Out


 Department of Justice                  $        -      $     3,128     $        -                244
 Department of Homeland Security                 -           32,300              -           20,584
 Department of Treasury                          -                563            -                318
 Internal Revenue Service                        -           21,107              -           30,569
 Financial Crimes Enforcement Network            -            5,355              -                475
 Tax and Trade                                   -                399                             116
 Department of State                             -                  -            -                140
 Department of Labor                             -                250            -                250
 Department of Commerce                          -                500            -                100
  Totals                                $        -      $    63,602     $        -     $     52,796




                  SECTION IV – REQUIRED SUPPLMENTAL INFORMATION (UNAUDITED)                         47
          SECTION V

OTHER ACCOMPANYING INFORMATION

         (UNAUDITED)
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2009
                                                 (Dollars in Thousands)
                                                      (Unaudited)

     State/U.S. Territories                                    Currency Value              Property Value

     Alabama                                                       $       293                $        2
     Alaska                                                                130                        50
     Arizona                                                               858                       146
     Arkansas                                                               61                         -
     California                                                          3,335                       105
     Colorado                                                              496                         -
     Connecticut                                                            23                         -
     D.C. Washington                                                       206                         -
     Delaware                                                               62                         -
     Florida                                                             4,708                       440
     Georgia                                                             3,949                        35
     Guam                                                                    -                         -
     Hawaii                                                                 22                         -
     Idaho                                                                 435                         5
     Illinois                                                            5,107                         5
     Indiana                                                             1,240                         -
     Iowa                                                                    3                         1
     Kansas                                                                 21                         -
     Kentucky                                                              688                         9
     Louisiana                                                             657                         -
     Maine                                                                 511                         -
     Maryland                                                            1,315                        91
     Massachusetts                                                         832                         -
     Michigan                                                            4,885                        41
     Minnesota                                                              69                         2
     Mississippi                                                            18                         7
     Missouri                                                              224                         -
     Montana                                                                67                         -
     Nebraska                                                               17                         -
     Nevada                                                                336                         2
     New Jersey                                                          1,822                         -
     New Hampshire                                                         272                        10
     New Mexico                                                              3                         -
     New York                                                           11,337                       622
     North Carolina                                                      6,016                     1,065
     North Dakota                                                            -                         -
     Ohio                                                                  425                         5
     Oklahoma                                                              249                         -
     Oregon                                                              1,433                        53
     Pennsylvania                                                          176                        38
     Puerto Rico                                                         1,203                        20
     Rhode Island                                                            -                         -
     South Carolina                                                      3,985                       425
     South Dakota                                                            -                         -
     Tennessee                                                             827                     1,058
     Texas                                                              12,359                       544
     Utah                                                                    -                         -
     Subtotal carried forward                                          $70,675                    $4,781


48                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                                       TREASURY FORFEITURE FUND
                           Equitable Sharing Summarized by State and U.S. Territories
                                     For the Year Ended September 30, 2009
                                             (Dollars in Thousands)
                                                  (Unaudited)


State/U.S. Territories                                  Currency Value                   Property Value

Subtotal brought forward                                       $70,675                          $4,781
Vermont                                                            225                               -
Virgin Islands                                                       -                               -
Virginia                                                         1,759                              35
Washington                                                       8,137                             773
West Virginia                                                      280                               4
Wisconsin                                                        3,061                               9
Wyoming                                                             17                               -

         Totals                                                $84,154                          $5,602

Summarized above are the currency and property values of assets forfeited and shared with state and local
agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of
the financial statement of the Department of the Treasury Forfeiture Fund. Information presented on this
schedule represents assets physically transferred during the year and, therefore, does not agree with total assets
shared with state and local agencies in the financial statements. In addition, the above numbers do not include
the adjustment to present property distributed at net realizable value.




                           SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                               49
                                TREASURY FORFEITURE FUND
              Uncontested Seizures of Currency and Monetary Instruments Valued Over
               $100,000, Taking More Than 120 Days from Seizure to Deposit in Fund
                              For the Year Ended September 30, 2009
                                       (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100,000, which were not
deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date. There
were no administrative seizures over $100,000 over 120 days old for all bureaus in FY 2009.




50             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                                  TREASURY FORFEITURE FUND
                          Analysis of Revenue and Expenses and Distributions
                               For the Year Ended September 30, 2009
                                        (Dollars in Thousands)

 Revenue, Expenses and Distributions by Asset Category:
                                                                                            Expenses and
                                                                            Revenue         Distributions

 Vehicles                                                                   $10,265              $78,148
 Vessels                                                                      2,851               99,568
 Aircraft                                                                     2,851               32,077
 General Property                                                             9,124              316,033
 Real Property                                                               31,934               12,379
 Currency and monetary instruments                                          509,335               28,155
                                                                            566,360              566,360
 Less:
   Mortgages and claims                                                      (3,407)              (3,407)
   Refunds                                                                  (35,777)             (35,777)
 Add:
   Excess of net revenues and financing sources over total program                 --                  --
       expenses
 Total                                                                     $527,176             $527,176

 Revenues, Transfers, Expenses and Distributions by Type of
 Disposition:
 Sales of property and forfeited currency and monetary instruments          416,492              107,609
 Reimbursed storage costs                                                     4,026               56,636
 Assets shared with state and local agencies                                125,009              125,009
 Assets shared with other federal agencies                                    9,594                9,594
 Assets shared with foreign countries                                         4,096                4,096
 Victim Restitution                                                           7,143                7,143
 Destructions                                                                     --              67,963
 Pending disposition                                                              --             188,310
                                                                            566,360              566,360
 Less:
   Mortgages and claims                                                      (3,407)              (3,407)
   Refunds                                                                  (35,777)             (35,777)
 Add:
   Excess of net revenues and financing sources over total program                 --                  --
       expenses
 Total                                                                     $527,176             $527,176

The revenue amount of $527,176 is from the Statement of Net Position. This supplemental schedule “Analysis
of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund Act of 1992.




                     SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                               51
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2009
                                        (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to
transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)   A report on:

      (A) The estimated total value of property forfeited with respect to which funds were not deposited in the
          Department of the Treasury Forfeiture Fund during the preceding fiscal year under any law
          enforced or administered by the Department of the Treasury law enforcement organizations of the
          United States Coast Guard, in the case of fiscal years beginning after 1993.

          As reported in the audited financial statements, at September 30, 2009, the Fund had forfeited
          property held for sale of $57,263. The realized proceeds will be deposited in the Fund when
          the property is sold.

          Upon seizure, currency and other monetary instruments not needed for evidence in judicial
          proceedings are deposited in a Customs and Border Protection (CBP) suspense account.
          Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September 30, 2009,
          there was $18,497 of forfeited currency and other monetary instruments that had not yet been
          transferred to the Fund. This is reported as a part of “Cash and Other Monetary Assets” in
          the audited financial statements.

      (B) The estimated total value of all such property transferred to any state or local law enforcement
          agency.

          The estimated total value of all such property transferred to any state or local law
          enforcement bureau is summarized by state and U.S. territories. Total currency transferred
          was $84,154 and total property transferred was $5,602 at appraised value.

(2)   A report on:

      (A) The balance of the Fund at the beginning of the preceding fiscal year.

          The total net position of the Treasury Forfeiture Fund on September 30, 2008 which became
          the beginning balance for the Fund on October 1, 2009, as reported in the audited financial
          statements is $426,779.




52             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
                            TREASURY FORFEITURE FUND
                         Information Required by 31 U.S.C. 9703(f)
                          For the Year Ended September 30, 2009
                                  (Dollars in Thousands)

(B) Liens and mortgages paid and the amount of money shared with federal, state, local and foreign law
    enforcement bureaus during the preceding fiscal year.

    Mortgages and claims expense, as reported in the audited financial statements, was $3,407. the
    amount actually paid on a cash basis was not materially different.

    The amount of forfeited currency and property shared with federal, and distributed to state,
    local and foreign law enforcement bureaus as reported in the audited financial statements was
    as follows:

                       State and local                          $125,009
                       Foreign countries                           4,096
                       Other federal agencies                      9,594
                       Victim restitution                          7,143

(C) The net amount realized from the operations of the Fund during the preceding fiscal year, the
    amount of seized cash being held as evidence, and the amount of money that has been carried over
    into the current fiscal year.

    The net cost of operations of the Fund as shown in the audited financial statements is
    $149,998.

    The amount of seized currency not on deposit in the Fund’s suspense account at September
    30, 2009, was $76,546. This amount includes some funds in the process of being deposited at
    yearend; cash seized in August or September 2009 that is pending determination of its
    evidentiary value from the U.S. Attorney; and the currency seized for forfeiture being held as
    evidence.

    On a budgetary basis, unobligated balances as originally reported on the Office of
    Management and Budget Reports, SF-133, “Report on Budget Execution” was approximately
    $299,970 for fiscal year 2009. This excludes $30,000 in FY 2009 rescinded authority that is
    classified as “temporary.” If this figure is added to the unobligated balances at the end of FY
    2009, the figure becomes $329,970.

(D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in such
    property is valued at $1 million or more.

    The total approximate value of such property for the Treasury Forfeiture Fund, at estimated
    values determined by bureau and contractor’s officials, and the number of seizures is as
    follows:

            CBP                            $58,235                 22 seizures
            IRS                            363,894                 116 seizures
            U.S. Secret Service            85,317                  16 seizures
               SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  53
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2008
                                        (Dollars in Thousands)

     (E) The total dollar value of uncontested seizures of monetary instruments having a value of over
         $100,000 which, or the proceeds of which, have not been deposited into the Fund within 120 days
         after the seizure, as of the end of the preceding fiscal year.

         The total dollar value of such seizures is $0. This is also documented on page 50.

     (F) The balance of the Fund at the end of the current fiscal year.

         The total net position of the Fund at September 30, 2009, as reported in the audited financial
         statements is $594,513.

     (G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of the
         preceding fiscal year and available to the Secretary for Federal law enforcement related purposes.

         There is no cap on amounts that can be carried forward into Fiscal Year 2010 per the fiscal
         year 1997 Omnibus Appropriations Act (PL 104-208).

     (H) A complete set of audited financial statements prepared in a manner consistent with the
         requirements of the Chief Financial Officers Act of 1990.

         The audited financial statements, including the Independent Auditor’s Report, are found in
         Sections II and III.

     (I) An analysis of income and expense showing revenue received or lost: (i) by property category
         (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
         disposition (such as sale, remission, cancellation, placement into official use, sharing with state and
         local agencies, and destruction).

         A separate schedule is presented on page 51.




54            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2009
THIS PAGE INTENTIONALLY LEFT BLANK
THIS PAGE INTENTIONALLY LEFT BLANK
